<html>
<title> - HEARING ON THE NOMINATIONS OF ARTHUR ELKINS TO BE INSPECTOR GENERAL OF THE EPA; EARL GOHL TO BE FEDERAL COCHAIR OF THE APPALACHIAN REGIONAL COMMISSION; SANDFORD BLITZ TO BE FEDERAL COCHAIRPERSON OF THE NORTHERN BORDER REGIONAL COMMISSION; AND MARILYN A. BROWN, BARBARA S. HASKEW, NEIL G. MCBRIDE, AND WILLIAM B. SANSOM TO BE MEMBERS OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY</title>
<body><pre>[Senate Hearing 111-1224]
[From the U.S. Government Publishing Office]


                                             
                                                     

                                                       S. Hrg. 111-1224
                                                       
HEARING ON THE NOMINATIONS OF ARTHUR ELKINS TO BE INSPECTOR GENERAL OF 
 THE EPA; EARL GOHL TO BE FEDERAL COCHAIR OF THE APPALACHIAN REGIONAL 
COMMISSION; SANDFORD BLITZ TO BE FEDERAL COCHAIRPERSON OF THE NORTHERN 
 BORDER REGIONAL COMMISSION; AND MARILYN A. BROWN, BARBARA S. HASKEW, 
 NEIL G. MCBRIDE, AND WILLIAM B. SANSOM TO BE MEMBERS OF THE BOARD OF 
              DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
       
                                _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 21-161 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 9, 2010
                           OPENING STATEMENTS

Snowe, Hon. Olympia J., U.S. Senator from the State of Maine.....     2
Collins, Hon. Susan M., U.S. Senator from the State of Maine.....     3
Brown, Hon. Sherrod., U.S. Senator from the State of Ohio........     5
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     7
Corker, Hon. Bob, U.S. Senator from the State of Tennessee.......    10
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    11
Boxer, Hon. Barbara, U.S. Senator from the State of California...    13
    Prepared statement...........................................    76
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   331

                               WITNESSES

Elkins, Arthur A., Jr., nominated to be Inspector General, U.S. 
  Environmental Protection Agency................................    42
    Prepared statement...........................................    45
    Responses to additional questions from:
        Senator Boxer............................................    49
        Senator Inhofe...........................................    51
        Senator Vitter...........................................    52
        Senator Barrasso.........................................    53
Gohl, Earl, Jr., nominated to be Federal Cochair, Appalachian 
  Regional Commission............................................    54
    Prepared statement...........................................    56
    Responses to additional questions from:
        Senator Boxer............................................    60
        Senator Cardin...........................................    62
        Senator Inhofe...........................................    65
Blitz, Sandford, nominated to be Federal Cochairperson, Northern 
  Border Regional Commission.....................................    68
    Prepared statement...........................................    70
    Responses to additional questions from Senator Boxer.........    72
    Response to an additional question from Senator Inhofe.......    74
Brown, Marilyn A., nominated to be a Member, Board of Directors, 
  Tennessee Valley Authority.....................................    78
    Prepared statement...........................................    79
    Responses to additional questions from:
        Senator Boxer............................................   219
        Senator Carper...........................................   222
        Senator Inhofe...........................................   225
        Senator Alexander........................................   227
Haskew, Barbara S., nominated to be a Member, Board of Directors, 
  Tennessee Valley Authority.....................................   229
    Prepared statement...........................................   231
    Responses to additional questions from:
        Senator Boxer............................................   249
        Senator Carper...........................................   252
        Senator Inhofe...........................................   255
        Senator Alexander........................................   257
McBride, Neil G., nominated to be a Member, Board of Directors, 
  Tennessee Valley Authority.....................................   259
    Prepared statement...........................................   260
    Responses to additional questions from:
        Senator Boxer............................................   300
        Senator Carper...........................................   303
        Senator Inhofe...........................................   306
        Senator Alexander........................................   309
Sansom, William B., nominated to be a Member, Board of Directors, 
  Tennessee Valley Authority.....................................   311
    Prepared statement...........................................   312
    Responses to additional questions from:
        Senator Boxer............................................   314
        Senator Carper...........................................   317
        Senator Inhofe...........................................   322
        Senator Alexander........................................   324

 
HEARING ON THE NOMINATIONS OF ARTHUR ELKINS TO BE INSPECTOR GENERAL OF 
 THE EPA; EARL GOHL TO BE FEDERAL COCHAIR OF THE APPALACHIAN REGIONAL 
COMMISSION; SANDFORD BLITZ TO BE FEDERAL COCHAIRPERSON OF THE NORTHERN 
 BORDER REGIONAL COMMISSION; AND MARILYN A. BROWN, BARBARA S. HASKEW, 
 NEIL G. MCBRIDE, AND WILLIAM B. SANSOM TO BE MEMBERS OF THE BOARD OF 
              DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 2:30 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Alexander, Cardin, Barrasso, and 
Whitehouse.
    Also present: Senators Snowe, Collins, Brown, and Corker.
    Senator Boxer. I want to thank everyone for being here 
today. I am so pleased we have so many Senators here. We are 
going to get right to the introductions so that Senators who 
are here can get back to their busy schedules.
    We are going to hear today on the first panel the EPA 
Inspector General, and that would be Arthur Elkins and Earl 
Gohl, to be Federal Cochair of the Appalachian Regional 
Commission, and Sandford Blitz to be Federal Cochair of the 
Northern Border Regional Commission.
    And then on the second panel, and we really thank these 
very brave TVA nominees for going to the airport, coming back 
from the airport, now headed out to the airport after this, we 
will hear from you. And those are Marilyn A. Brown, Barbara S. 
Haskew, Neil G. McBride, and William B. Sansom to be on the 
board of the Tennessee Valley Authority.
    So in deference to our colleagues who are here, Senator 
Cardin, is it OK if I allow them to do their introductions; is 
that all right? Or would you like to go first?
    Senator Cardin. I want to introduce one of them.
    Senator Boxer. OK. Well, why don't we just start from 
Senator Snowe, Senator Collins, Senator Brown. Oh, and I didn't 
see--Senator Corker, did you just join the crowd over there? 
Senator Corker, we are very happy you are here as well.
    Go ahead, Senator Snowe.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
              U.S. SENATOR FROM THE STATE OF MAINE

    Senator Snowe. Thank you, Madam Chair, and I want to thank 
Senator Cardin as well and all the members of the committee. 
Let me express my sincere appreciation to you and the entire 
committee for your timely consideration in scheduling of this 
hearing and to all the distinguished members.
    It is my distinct privilege to join Senator Collins in 
introducing the President's nominee for Federal Cochair of the 
Northern Border Commission, Sandy Blitz. He is truly an icon of 
economic development in Maine and has been a friend for many 
years. It has been recommended by the entire congressional 
delegation, including Congressman Mike Michaud and Chellie 
Pingree. I also want to welcome Sandy's wonderful wife, Mona, 
who is here today. I know this is a proud moment as they look 
forward to a new chapter in Sandy's continuing dedication to 
his country and his lifetime devoted to creating jobs, 
strengthening our economy and expanding small businesses and 
entrepreneurship in our rural regions.
    Madam Chair, indisputably, economic development in all 
areas of our Nation is key to our country's economic recovery 
and expansion. Specifically, unemployment in the non-
metropolitan towns in Maine is 13 percent higher than in 
metropolitan regions of the State. Unfortunately, as Senator 
Sanders and Senator Gillibrand of this committee are all too 
aware, this staggering unemployment figure permeates throughout 
the northern tier of New York, Vermont, New Hampshire and 
Maine. These counties and States are part of pervasive and 
severe regional economic distress. For example, with 9.4 
percent unemployment in Coos County, New Hampshire, 10.4 
percent in Fulton County, New York, 11 percent in Essex County, 
Vermont, and 11.8 percent in Piscataquis County, Maine.
    So it is absolutely vital at this moment that we bolster 
the Economic Development Administration, whose mission is to 
generate jobs in economically distressed areas of the United 
States. That is why I have always been a fierce champion for 
EDA throughout my tenure in the House and Senate because it 
builds indispensable lifelines to these communities.
    With that imperative in mind I sponsored the legislation, 
along with Senator Collins, to establish the Northern Border 
Commission, which we worked hand in glove along with 
Congressman Michaud, who spearheaded this visionary initiative. 
I was very pleased that this innovative economic development 
approach was included in the farm bill, with its primary focus 
on collaboration to address the severe unemployment and 
chronically low wages that are regrettably typical of these 
northeastern States.
    I can tell you firsthand there could not be a more ideal 
person to inaugurate the Commission than Sandy Blitz, whose 28 
years of rural economic experience has been defined by a 
cumulative depth and breadth of experience and expertise and a 
passion for economic development that will be indispensable in 
transforming the Commission's objective into action, to hit the 
ground running to expeditiously address the lack of jobs in 
rural counties with the sense of urgency that is required. Time 
and again Sandy has been a pit bull for economic development, 
battled the bureaucracies to bring jobs to rural areas. 
Specifically, as EDA's Maine regional representative Sandy 
served for 13 years as chief architect of Maine's economic 
development strategy. And for the final 2 years at EDA, he was 
tapped to expand his leadership to include Connecticut and 
Rhode Island.
    During this time Sandy developed a reputation not only as a 
strategic planner but as an individual who executes these 
plans, making them a reality. For example, Sandy worked with 
the city of Eastport, Maine, to develop their world class 
deepwater harbor into a world class port, bringing jobs to 
Washington County where 20 percent of the population is below 
the poverty level, and one of counties that would be under the 
purview of this commission. As a result of his work, shipments 
out of the port have more than doubled.
    Most recently, Sandy served with distinction as regional 
administrator of the Small Business Administration for the six 
New England States. As Ranking Member of the Small Business 
Committee, I have worked closely with Sandy to ensure that New 
England's 1.4 million small businesses have the loans and 
financing to grow and expand. Additionally he brought his 
extensive knowledge of the Federal Government to bear as he 
counseled numerous entrepreneurs seeking to start their own 
firms or expand operations. Sandy was a tireless and determined 
advocate for their success.
    If confirmed, Sandy will have served under every President 
since President Gerald Ford and has a reputation for working 
with anyone who is serious about job creation. As Federal 
Cochair he will build on his accomplishments in these 
leadership positions and develop cross-State boundary efforts 
that will preserve the traditional industries of the region, 
catalyze new rural economic and small development and job 
growth and slow the out-migration that has been the scourge of 
many of our rural areas. No one has more collective experience 
than Sandy to work with the Federal and State agencies to 
tackle these issues that so many families are grappling with 
across the region. And certainly this commission could not be 
more timely nor led by a more qualified individual.
    Thank you, Madam Chair.
    Senator Boxer. Mr. Blitz, if I were you, I would just put 
my statement in the record.
    [Laughter.]
    Senator Boxer. You are rounding third base.
    And now we are going to hear from Senator Collins.

          OPENING STATEMENT OF HON. SUSAN M. COLLINS, 
              U.S. SENATOR FROM THE STATE OF MAINE

    Senator Collins. Thank you, Madam Chairman.
    I was just thinking as I listened to Senator Snowe's 
eloquent testimony on behalf of the nominee that I actually 
should just say ditto and leave immediately. But instead I am 
going to take advantage of this opportunity because I cannot 
imagine a better person for the President to have nominated 
than Sandy Blitz to be the first Federal Cochair of the 
Northern Border Regional Commission. Since this is a new 
commission it is absolutely imperative that the first Cochair 
be an individual of extraordinary experience and exceptional 
qualification. And in Sandy Blitz the President has nominated 
such a person.
    Throughout his career Sandy has been dedicated to building 
partnerships between government and the private sector to 
create jobs. Sandy's experience with local government dates 
back to the 1970s where he worked for the mayor of Bridgeport, 
Connecticut, for several years. He has also held numerous 
Federal positions, with the General Services Administration, 
the Economic Development Administration and most recently with 
the Small Business Administration. For several years, Sandy 
served as the executive manager of the Bangor, Maine, Target 
Area Development Corporation and worked with the Eastern Maine 
Development Corporation.
    In addition he has operated his own private consulting 
firm. He has served as an adjunct professor at the University 
of Maine. And he has helped the University develop resources to 
bring research projects to market. His counsel has been sought 
by government, business and academia for virtually every aspect 
of economic development.
    Sandy is also steeped in the challenges and potential of 
the areas that will be served by the Northern Border Regional 
Commission. For more than 10 years he has worked tirelessly and 
frequently without pay to bring the people of this entire 
region together. He has developed a ground breaking map of the 
region which shows county by county the widespread effects of 
economic stagnation in the Northern Border region. This map 
reveals the economic distress that is at times masked when the 
data are examined only at the State level.
    Sandy developed many of the concepts that ultimately led to 
the introduction of the legislation that created this new 
commission. And I too want to recognize the work that was done 
on the House side by Congressman Mike Michaud in developing the 
Commission. Senator Snowe and I were pleased to lead the effort 
on the Senate side. He has served as the public member on an 
unprecedented committee composed of transportation authorities 
from Ontario, Quebec, the Atlantic provinces in Canada, and 
Maine, New Hampshire, Vermont and New York. This committee 
studied multi-modal transportation links across that broad 
region. It produced the Can-Am study, which will greatly assist 
Sandy and the Commission members as they analyze what is 
working and what is not working across the Northern Border 
region.
    I worked very closely, as did my colleague, Senator Snowe, 
with Sandy when he was the regional administrator of SBA and 
during his many years at EDA. Sandy will bring extraordinary 
talent and experience to the Northern Border Regional 
Commission, because he truly understands the people of the 
region and the challenges it faces.
    I am convinced that the President could have found no 
better nominee for this important position than Sandy, and I am 
pleased and proud to join my senior colleague from Maine, 
Senator Snowe, in offering him my strong support.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Collins follows:]

                  Statement of Hon. Susan M. Collins, 
                  U.S. Senator from the State of Maine

    Chairman Boxer, Senator Inhofe, and members of the 
committee, I am delighted to testify today on behalf of Sandy 
Blitz, who has been nominated to serve as the first Federal Co-
Chair of the Northern Border Regional Commission. Sandy is 
joined here today by his wife, Mona.
    Throughout his career, Sandy has been dedicated to building 
partnerships between government and the private sector to 
create opportunity.
    Sandy's experience with local government dates to the early 
1970s when he worked for the Mayor of Bridgeport, Connecticut, 
for several years. He has also held important Federal positions 
with the General Services Administration, the Economic 
Development Administration, and most recently with the Small 
Business Administration.
    For many years, Sandy served as the Executive Manager of 
the Bangor (Maine) Target Area Development Corporation and 
worked with the Eastern Maine Development Corporation. In 
addition, he has operated his own private consulting business, 
served as an adjunct assistant professor at the University of 
Maine, and helped the University develop resources to bring 
research projects to market. His counsel has been sought by 
government, business, and academia for virtually every aspect 
of economic development.
    Sandy is also steeped in the challenges and potential of 
the area that will be served by the Northern Border Regional 
Commission. For more than 10 years, he has worked tirelessly--
and frequently without pay--to bring the people of this region 
together. He developed a groundbreaking map of the region 
(using criteria established by the Department of Commerce) 
which shows, county by county, the widespread effects of 
economic stagnation in the northern border region. This map 
reveals economic distress that is masked when the data are 
examined only at the State level.
    Sandy developed many of the concepts that ultimately led to 
the introduction of the legislation that created the Northern 
Border Regional Commission. He also served as the public member 
on an unprecedented committee composed of transportation 
authorities from Ontario, Quebec, the Atlantic Provinces, 
Maine, New Hampshire, Vermont, and New York. This committee 
studied the multi-modal transportation links across that broad 
region. It produced the CanAm Study, which will greatly assist 
Sandy and the Northern Border Regional Commission as they 
analyze what is working and what is not working in the northern 
border region.
    I worked closely with Sandy when he was the Regional 
Administrator at SBA and during his many years at EDA. Sandy 
will bring extraordinary talent and experience to the Northern 
Regional Border Commission because he truly understands the 
economic challenges facing our region. I am convinced that the 
President could have found no better nominee for this important 
position than Sandy Blitz, and I am pleased and proud to offer 
him my support.

    Senator Boxer. Thank you so very much. And Senators, I know 
you have other things that you have to attend to, so as soon as 
you wish to, leave. Of course, we thank you for coming.
    Senator Brown, I understand you are here to speak for one 
of our nominees, Mr. Elkins, who is up for Inspector General of 
the EPA.

           OPENING STATEMENT OF HON. SHERROD BROWN, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Brown. I am, thank you, Madam Chair. Thank you to 
Senator Alexander, Senator Barrasso and Senator Cardin.
    I am pleased to introduce to the four of you and to this 
committee Arthur Elkins, Jr., nominated to serve as Inspector 
General of the Environmental Protection Agency. He is joined by 
his wife, Gail, who is sitting behind me, and we welcome her.
    You know that Mr. Elkins comes from Ohio because he and his 
wife didn't break a sweat to get here in the snow.
    [Laughter.]
    Senator Brown. It is an important moment for EPA and for 
U.S. taxpayers. American taxpayers should be able to trust that 
programs ensuring clean water, Superfund clean up and 
brownfields redevelopment are being managed in an effective and 
cost efficient manner, the kinds of work over which 
jurisdiction this committee is so important. American taxpayers 
need to know that EPA is not doing more harm than good. It is 
especially true when it comes to regulating CO<INF>2</INF> 
emissions. Climate change is an important environmental issue 
and economic issue and global security issue. We must have a 
smart, independent IG at this critical juncture. Arthur Elkins, 
Jr., I believe, is that person.
    The committee should know that Mr. Elkins' credentials and 
broad career experience speak for themselves. Arthur has 
practiced law for some 20 years, including stints at the 
Cuyahoga County, that is Cleveland, Cuyahoga County Public 
Defenders and Prosecutors offices, the Department of Defense, 
the National Science Foundation, the Court Service and Offender 
Supervision Agency, and for the past year the U.S. 
Environmental Protection Agency. He worked under the tutelage 
of Senator Cardin's seat mate on the Ways and Means Committee, 
Stephanie Tubbs Jones, when she was a county prosecutor in 
Cleveland.
    Mr. Elkins has served as a prosecutor, a trial attorney, a 
general counsel, and while at the National Science Foundation 
as counsel to the Inspector General. That is his public sector 
experience. His impressive list of public sector achievements 
parallels his extensive private sector experience. Prior to his 
career as a public servant Mr. Elkins, in fact before he went 
to law school, worked as a teacher and in the sales department 
for a number of important Ohio companies. This wide ranging 
experience will serve him well as he looks for waste, fraud and 
abuse across the numerous programs at the Environmental 
Protection Agency.
    His dedication to public service, his work as a fair and 
independent arbiter bode well for his success in the difficult 
but very, very important job of this Inspector General. I 
encourage the committee to take a close look at this qualified 
candidate and urge you to move quickly on his confirmation and 
nomination.
    I thank the Chair.
    Senator Boxer. Senator Brown, thank you, and of course we 
know you have other things to attend to.
    What I would like to do is hear from Senator Cardin, who 
also would like to introduce Mr. Elkins. And then I will turn 
to Senators Alexander and Corker in whatever order they wish, 
Corker first, Alexander next, to talk about some of our TVA 
people, who we are so happy did make it here. So good work, 
Senator, for making sure this really happened.
    Senator Alexander. Thanks to the Chairman for her 
flexibility.
    Senator Boxer. Right, we were flexible; we got it done.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, let me just add one thing to 
Senator Brown's introduction of Arthur Elkins, and that is he 
is now a resident of Bowie, Maryland. So he may have gotten his 
training in Ohio, but he had enough sense to come to Maryland. 
So we want to welcome him to our State. I am sure that he got 
here on time because he is a good Marylander. We thank him.
    If you are looking at what should be the appropriate 
background for an inspector general, look at Mr. Elkins' 
resume, look at what he has done, look at the type of 
experience he has had in the public sector and the private 
sector. He has devoted his career to this type of work. So we 
very much look forward to his continued public service. I 
strongly endorse his nomination.
    I will just add one additional point, if I might. In 
Maryland, we are very interested in what is happening with the 
Chesapeake Bay and the EPA program in the Chesapeake Bay. I 
have introduced legislation which I hope we will pass in this 
Congress. It would, I think, help us enforce the water 
qualities necessary in the Bay. The Environmental Protection 
Agency has their program, which I support, which will enforce 
the maximum daily loads.
    The reason I mention that with Mr. Elkins is that we need 
to make sure that there is a very open process with all the 
stakeholders who are going to be impacted by that. I think the 
Inspector General can help us a great deal to make sure that we 
have the type of credibility as that program moves forward that 
will have the confidence of all the stakeholders and yet be 
able to at last accomplish the type of water quality that we 
want to see in the Chesapeake Bay that Congress has spoken to 
and the Administration is implementing.
    As I look at Mr. Elkins' background I can tell you I have a 
lot of confidence that he will do exactly that. He clearly has 
a lot of experience in Ohio, and we thank Senator Brown for the 
way that he has brought that to our attention. We look forward 
to working with Mr. Elkins, and I thank you very much for your 
continued public service.
    [The prepared statement of Senator Cardin follows:]
                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland
    Thank you, Madam Chairman, for holding this hearing this afternoon. 
I also want to thank our witness for coming before our committee and 
wish them the best with the proceeding of their confirmations.
    As EPA takes on new initiatives to better protect the environment 
the role of the IG will be incredibly important to make sure that 
regulations put forth are understood and followed to achieve the goal 
of protecting public health and the environment.
    I was very pleased last summer when the President announced his 
Executive Order to make the restoration of the Chesapeake Bay an 
environmental priority for the EPA. I applaud this initiative and am 
working hard myself to pass legislation to bring about the restoration 
of the Bay. I understand how important it is to work with stakeholders 
in my State and throughout the watershed to accomplish the task of 
restoring the Bay.
    As I advance my Chesapeake Bay Ecosystem Restoration Bill I am 
committed to keeping the process open for input from the public, and I 
would encourage the EPA to do the same with its rulemaking and the 
establishment of the 78 TMDLs that will be vital to putting the Bay on 
its necessary ``Pollution Diet.''
    Implementing this program is going to require an open approach as 
well, and I would encourage the Office of Inspector General to keep 
watch of how the Agency implements the Bay restoration program and give 
careful guidance and advice to the Bay Program on being inclusive and 
open with the public, particularly with stakeholders like farmers and 
developers that will bear the burden of meeting these requirements.
    I am hopeful that Arthur Elkins will help inform and facilitate 
this process.
        statement addressed to arc co-chairman nominee earl gohl
    Western Maryland has benefited from several ARC projects including 
worker training programs, transportation improvement projects and 
expanded access to broadband communications services. For that I am 
grateful, and it is one of the reasons I worked very hard to help 
increase planning grants funding for my State and all Economic 
Development Districts.
    The Tri-County Council of Western Maryland has a long history of 
working hand in hand with the Appalachian Regional Commission. I 
encourage you to keep this partnership strong.
    One of the most important projects to Western Maryland and the 
region is the completion of the North/South Appalachian Highway. Dozens 
of companies, public officials, civic and public organizations in 
Western Maryland have made this project a No. 1 priority for the 
region. They all see the alignment and improvements to Routes 219 and 
220 as critical infrastructure projects for improving and sustaining 
economic development in the region.
    Improvements to these two roads are estimated to create upwards of 
12,000 new permanent jobs and 20,000 construction jobs in the three 
affected States. These jobs are more important than ever to the region, 
and I am working hard to see that the remaining portions of the project 
in Maryland are realized.
    ARC is an important facilitator of this project, and I encourage 
you and the leadership to make this project a priority for the 
Commission. To complete this entire project I urge your support for 
repealing the prohibition on the use of toll credits to fund the 
project. Granted this is an issue that Congress needs to resolve, but I 
want to urge the Administration, the Appalachian Regional Commission 
and you to support and advocate for this change to the law.
    I look forward to the testimonies of our nominees, and I again 
thank the Chair and Ranking Member for holding this hearing.

    Senator Boxer. All right. I ask unanimous consent that a 
letter in support of Mr. Blitz's nomination from Congressman 
Michaud be entered into the record. If there is no objection, 
we will put that in.
    And Senator Corker, thank you so much for bearing with us 
in this last minute change. Please go right ahead, proceed.
    [The referenced letter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
   
    
             OPENING STATEMENT OF HON. BOB CORKER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Corker. Chairman Boxer and committee members, thank 
you very much for having this hearing today. I think I have 
been known for my brevity in the short time that I have been in 
the Senate. I don't plan on changing that.
    I am going to introduce four nominees. I know that Senator 
Alexander--and I think this may be the first time I have ever 
spoken in front of him at any hearing or any meeting--he will 
have some comments. I know that each of them, when they are up 
here, would like to introduce some outstanding family members 
that they have with them.
    It gives me great pride to be here. I thank you for having 
the hearing. I thank the President for filling this void on the 
TVA board. I know that you know this well, and the committee 
members do, the TVA is very important to the Tennessee Valley 
area. It spans multi-States, and it has multiple energy 
sources. It is very important to this country. So again, I 
thank the President for these nominees.
    I have had the great privilege of knowing Bill Sansom and 
Barbara Haskew, two of the nominees, for many, many years, 
almost my entire adult life, and think very, very highly of 
both of them. I have had the great opportunity to meet Neil 
McBride and Marilyn Brown. I must tell you, their background 
and the things that they care about as it relates to TVA are 
most impressive. As a matter of fact these four candidates, 
these four nominees, each bring experiences to TVA which has 
multi-faceted operations that I hope is going to be very 
complementary to moving TVA ahead with the many issues that TVA 
and many utilities have to deal with today.
    So with that, Chairman Boxer, I want to commend them to 
you. I hope that they will pass out of this committee and be 
confirmed by the Senate. And to each of them I want to say that 
I look forward to working with you on the many issues that TVA 
has to deal with. I thank you especially at this point in time 
in our country's history with all that we deal with in the 
public arena, I thank each of you for being willing to come 
forward and serve in this way. And again, hopefully right after 
confirmation I look forward to working with each of you.
    Thank you, Chairman, for having this hearing and the 
flexibility that you have shown. I know this will be a very 
productive hearing, and I thank our esteemed senior Senator for 
allowing me for the first time ever to speak in front of him.
    Senator Boxer. Well, he is a good guy.
    Let me just say, I don't anticipate any bumps in the road. 
That is a report from you to me, and we are friends, and if I 
see any problems, I will let you know. So far, so good for 
everybody who has been nominated today. That is how it appears 
from what I can tell. So thank you.
    Senator Alexander, the floor is yours.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chair, and thanks to 
Senator Corker. It is traditional for home State Senators to 
introduce, as I would be down there if I weren't a member of 
the committee, nominees from their State. We have three from 
Tennessee. But Dr. Brown, who now is at Georgia Tech, had a 
long career at the Oak Ridge National Laboratory. We had a good 
visit the other day, and I am delighted to see here today as 
well. So while I am not her Senator today, I can certainly 
welcome here today, and I am glad to see her here.
    Neil McBride, as Senator Corker said--I will let him 
introduce his family. He has had a long career in Tennessee, in 
environmental work, legal aid work. He has taught at the 
University of Tennessee, and I have enjoyed my visit with him 
prior to this hearing. Barbara Haskew and I have known each 
other a long time. She has a distinguished career at Middle 
Tennessee State University. She has been dean of the college, 
vice president and provost, which is a really hard job at a 
university. And she has a lot of experience with TVA itself in 
terms of its rate setting. I think she will be a valuable 
member of the board.
    Bill Sansom has the distinction of having been nominated 
first by a Republican President and second by a Democratic 
President. That doesn't happen all that often. I think it is 
because he is known in our State as really not being a 
political person. Most of his work has been as things like 
chairman of the chamber of commerce and lay chairman of the 
board of the University of Tennessee and as a business leader 
and former chairman of TVA. I would like to put in the record, 
Madam Chair, a letter I received from the speaker emeritus, 
Jimmy Naifeh, of the Tennessee House of Representatives. Jimmy 
Naifeh is the Democratic leader and was speaker of the house 
for many, many years, worked with Mr. Sansom. I would like to 
include this letter in the record.
    Senator Boxer. Without objection.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
    
    
    
    Senator Alexander. The Tennessee Valley Authority, there is 
no more important institution in our region, Madam Chairman, 
than the Tennessee Valley Authority. I saw it as Governor when 
one of the primary reasons why we were able to attract the 
automobile industry and other industries to Tennessee was 
because had large amounts of reliable, low cost electricity. I 
underline low cost. Today we would add the word clean to that. 
But large amounts of low cost, clean electricity. If there are 
any two words that I would like to emphasize to our nominees it 
would be low and cost. Because without those, the jobs go 
overseas, out of the country, looking for cheap energy.
    I will wait until my time comes to ask some questions of 
the nominees. But just as one example, our current Governor, I 
am sure, would say virtually the same thing that I just said. 
He has just attracted three polysilicon plants to Tennessee, 
big manufacturing plants for solar power. But they each use 120 
megawatts of electricity, and they wouldn't be in Tennessee if 
we didn't have large amount of low cost, reliable electricity 
today provided mostly by nuclear and coal.
    TVA is the 16th cleanest utility in the country in terms of 
producing electricity that is free of pollution. That comes 
almost exclusively from about 33 percent nuclear power and 7 
percent hydroelectric. So it is 40 percent carbon free, clean 
in that respect. And my hope is it can get much higher.
    Thank you, Madam Chair, for holding the hearing, for your 
courtesy and being flexible today to make it possible for all 
this to happen in the midst of a snow storm.
    Senator Boxer. Thank you very much.
    What we are going to do now is ask our first panel to take 
their seats. Our first panel would be Arthur Elkins, Earl Gohl 
and Sandford Blitz. I am going to make an opening comment, and 
then whoever else would like to can do so. And we will get 
right to our nominees. When we finish this panel, we will go to 
our TVA. I have an opening statement for that, and others can 
do that as well and we will move to the panel. And with good 
fortune we should breeze through this pretty painlessly.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The EPA is charged with protecting public 
health and the environment. Under our Nation's environmental 
laws it is a steward of our clean air, drinking water, lakes 
and rivers. The agency works to protect our children, our 
families and communities from hazardous waste, toxic chemicals 
and many other dangerous forms of pollution.
    The EPA Inspector General, in my view, is EPA's conscience. 
The IG's duty is to ensure that EPA actions are free of waste, 
fraud and abuse. And any nomination, anybody nominated to serve 
in this position must meet a high standard for impartiality, 
integrity and independence.
    Federal law requires that IGs be selected ``without regard 
to political affiliation and solely on the basis of integrity 
and demonstrated ability in accounting, auditing, financial 
analysis, law, management analysis, public administration or 
investigations.'' And Mr. Elkins, you fit that bill. I am going 
to ask that my statement be placed in the record in full.
    But I want to say to you, Mr. Elkins, yours will be a 
tough, tough job and a vitally important one. And for anyone 
who truly believes in public service, it is rewarding work. 
Because what you do is going to impact our toxic waste clean 
ups whether or not we actually reduce pollution for our 
children and protect our people from cardiovascular, 
respiratory and other illnesses caused by pollution. Your work 
will make sure that our families have safe water to drink and 
clean lakes, rivers, and beaches to enjoy. These just aren't 
jobs with a benign job description. All of you here on this 
panel and the next one, you are really involved in so many 
important things to make life better for our people and make 
sure that you stand up for their rights at all times. That is 
what is so crucial.
    Mr. Gohl, you have been nominated to be Federal Cochair of 
the Appalachian Regional Commission. We created this Commission 
to devise regional economic development initiatives involving 
Federal, State and local governments as well as community 
leaders. During these tough economic times the Commission needs 
a leader who is dedicated to providing opportunities for people 
to get back to work and for communities to reinvest in their 
economic future. We are very pleased that you have gotten this 
nomination.
    Mr. Blitz, what more could I add to the two Senators from 
Maine? They made the case so eloquently, all I can say is if 
you are half as good as they say, then I think the Northeast is 
going to be rocking out of this recession and leading the way 
for the rest of the country.
    So with that, I will put the rest of my statement into the 
record.
    [The prepared statement of Senator Boxer follows:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    The Environmental Protection Agency (EPA) is charged with 
protecting public health and the environment under our Nation's 
environmental laws. EPA serves as the steward of our clean air, 
drinking water, lakes and rivers, and the agency works to 
protect our children, families and communities from hazardous 
waste, toxic chemicals and many other dangerous forms of 
pollution.
    The EPA Inspector General is EPA's conscience. The IG's 
duty is to ensure that EPA's actions are free of waste, fraud 
and abuse. Any person nominated to serve in this position must 
meet a high standard for impartiality, integrity and 
independence.
    Federal law requires IGs to be selected ``without regard to 
political affiliation and solely on the basis of integrity and 
demonstrated ability in accounting, auditing, financial 
analysis, law, management analysis, public administration, or 
investigations.''
    For the past 16 years, Mr. Elkins has worked in public 
service, including as a public defender, prosecutor, counsel to 
the Inspector General of the National Science Foundation and as 
Associate General Counsel for EPA's General Law Office.
    Mr. Elkins, this is a tough, tough job, but also a vitally 
important job--and I think for anyone who truly believes in 
public service, it can be extremely rewarding work.
    If confirmed, you will provide EPA with information and 
recommendations that can help the Agency better achieve its 
goals of protecting public health and the environment. If 
confirmed, you can help the agency to achieve its mission to:
     Clean up more toxic waste sites to safeguard the health 
of our communities and to allow them to invest in redevelopment 
and jobs;
     Reduce air pollution so that our children do not suffer 
from asthma attacks and our people do not suffer from 
cardiovascular, respiratory, and other illnesses that are 
caused by pollution; and
     Ensure families have safe water to drink and clean lakes, 
rivers and beaches to enjoy.
    The Office of Inspector General plays a key oversight role 
at the Agency, and this office is in need of strong leadership. 
I look forward to hearing from you today on how you will 
address these critical issues.
    We also have Mr. Gohl before us today who has been 
nominated to be Federal Co-Chair of the Appalachian Regional 
Commission. Congress created the Commission to devise regional 
economic development initiatives involving Federal, State, and 
local governments, as well as community leaders.
    During this tough economic time, the Commission needs a 
leader who is dedicated to providing opportunities for people 
to get back to work and for communities to reinvest in their 
economic future.
    Mr. Blitz is also before us today and has been nominated to 
be the Federal Co-Chair of the Northern Border Regional 
Commission.
    The Commission is an organization created to address the 
economic and community development challenges of the northern 
and most economically distressed counties of the States of 
Maine, New Hampshire, New York and Vermont.
    The Federal Co-Chair of the Northern Border Regional 
Commission works with the Governors of those four States to 
identify needs and existing assets, develop economic and 
infrastructure strategies and make grants to support economic 
development. The Commission's purpose is to create and 
implement regional economic development plans to reduce 
poverty, address changing land use, and improve quality of 
life. The Commission's focus is on infrastructure, 
telecommunications, health care, transportation and energy.
    I look forward to your testimony today.

    Senator Boxer. Senator Alexander, do you have any further 
comments at this time?
    Senator Alexander. No, thank you, Madam Chair.
    Senator Boxer. Senator Cardin.
    Senator Cardin. Just very briefly, Madam Chair. I don't 
want to trespass too much more on the time of our witnesses. I 
do want to talk just a moment about the Appalachian Regional 
Commission because it is critically important to the western 
part of my State. I do want to make two points, if I might. The 
Tri-County Council of Western Maryland has a long history of 
working hand in hand with the Appalachian Regional Commission. 
I encourage this partnership to continue, and I hope we will 
have a chance perhaps to talk about it.
    The second thing I want to mention is the critically 
important economic priority for that region. It is the 
completion of the north-south highway alignment, Highway 219 
and 220. It is a critical infrastructure for the entire region 
of West Virginia, Maryland and Pennsylvania. The improvement of 
these roads is estimated to create upwards of 12,000 new 
permanent jobs and 20,000 construction jobs in these affected 
States. It is not easy to find jobs in that part of our State, 
and that is exactly what the Appalachian Regional Commission's 
priorities should be about. I look forward to working with you, 
Mr. Gohl, as we develop a strategy.
    I just want to mention one other thing that is important to 
Pennsylvania, not so much to Maryland. That is the prohibition 
on the use of toll credits to fund the project. Now, I know 
that is a legislative issue. But it would be helpful if the 
Commission would take a stand on that to help us complete the 
north-south highway. I just wanted to alert you to that at the 
beginning of this hearing because these are issues I will be 
questioning you on.
    Thank you, Madam Chair, for your indulgence.
    Senator Boxer. Thank you, Senator Cardin.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman. I 
want to congratulate each of you; welcome you to the committee. 
I congratulate your families as well.
    I would like to have a few comments, Madam Chairman, along 
the lines of what you mentioned, and specifically with regard 
to Mr. Elkins, who I congratulate and welcome to the committee. 
I would like to read to you, if I may, sir, a letter that 
Senator Inhofe and I sent to Lisa Jackson, the Administrator of 
the Environmental Protection Agency. We sent this October 15th. 
It says, ``It has been nearly a year since the Administration 
has been in office. Over that time, the EPA has proposed a 
series of regulations to monitor and regulate greenhouses 
gases, which could cost millions of Americans their jobs. The 
process behind these regulations has raised many unanswered 
questions about how they were developed. We are concerned that 
not having a full-time EPA Inspector General appointed by the 
President and confirmed by the Senate fails to provide proper 
oversight of your agency's actions.'' The letter goes on to 
state that the President's delay in nominating an EPA Inspector 
General ``fails to meet the Administration's objective to put a 
premium on transparency and openness.'' So despite the 
Administration's delay in getting a nomination to the Senate, I 
am glad that you are here today to visit with us, Mr. Elkins. 
The Inspector General at the EPA faces a daunting task, as our 
Chairman said. For more than a year the EPA has operated 
without this necessary oversight.
    During that time Administration officials and some EPA 
officials have instructed individuals not to put information in 
writing, I presume in an effort to avoid public scrutiny of 
activity occurring behind the scenes at the EPA. They have 
attempted to publicly discredit a respected Small Business 
Administration attorney who dared to tell EPA that they had not 
followed proper procedures. And attempted to silence through 
intimidation and other means an internal critic who raised 
concerns about information the EPA was relying on to reach 
certain conclusions.
    Now, EPA Administrator Lisa Jackson herself said on April 
23rd of last year, ``The success of our environmental efforts 
depends on earning and maintaining the trust of the public we 
serve.'' Trust in the EPA cannot be achieved without 
transparency and oversight. The Environmental Protection Agency 
is pursuing regulations and policies that I believe will cost 
millions of Americans' jobs.
    The legality of the process that EPA has used to formulate 
the endangerment finding relating to carbon dioxide, which I 
might add is the greatest American job killing threat we have 
seen in decades, has been questioned by two Administration 
officials in under a year. I tried to investigate these matters 
as Ranking Member of the Subcommittee on Oversight of this 
committee. I have asked for investigation and hearings by the 
EPA and by the majority. The requests have been denied.
    I believe it is time for a change. If this Administration 
or committee won't investigate these matters then you as the 
named Inspector General must act. The Administration has said 
that they want an EPA that is open and transparent, that 
differing views will be encouraged, that decisions will be 
based solely on science and that any individual will be made 
available to speak to Members of Congress without fear of 
reprisal.
    I don't believe that the Administration has made the grade 
because they have been able to act without this accountability 
that you will provide. It is my hope that you will be able to 
bring the proper accountability and oversight that has been 
sorely missing. Once again, I thank you for being here to 
answer our questions, and I congratulate you on this new 
assignment.
    Thank you, Madam Chairman.
    Senator Boxer. Well, Mr. Elkins, since you have been thrown 
into now the middle of a very contentious issue, let me make it 
clear that our committee is quite divided on this point and 
that many of us believe that when the U.S. Supreme Court 
decided 5 to 4 that in fact greenhouse gas emissions were 
covered under the Clean Air Act, and they ordered the EPA to 
take a look at the endangerment situation, and if they found 
that in fact greenhouse gas endangers our people, they must 
act. And when in fact this EPA built on the EPA of George Bush, 
which had started all that work, and they came out with it, we 
had a lot of people saying uh-oh, now we are going to try a 
political attack. And that is what is going on. For 8 years, 
nothing was done because this case was in the court.
    Now, where we come down now is we have several people, if 
not almost all, on the other side say that if we act, which 
this committee did act to write climate legislation, which has 
nothing to do, Mr. Elkins, with you, we write the laws, you 
have got to make sure they are carried out, OK? So this 
committee did act and did report a bill out. Now, my friend 
Senator Barrasso says the greatest job killer in the world. 
Well, we have three studies that just came out, one from Pew 
Charitable Trust, and we will put that in the record, one from 
U.C. Berkeley and the other from Next10, that says that the 
only job growth that has taken place during this recession has 
been clean energy jobs.
    Now, that has nothing to do with your work. But politics 
has been thrown into the mix here, so we are going to get the 
debate out. But the fact is what we want you to do, I would 
trust both sides, is not come to this table with a political 
agenda of any sort. If you personally believe that standing up 
and battling greenhouse emissions, and if you agree with me, it 
is the greatest opportunity for clean energy jobs, it is a way 
to catch up with China, who is just cleaning our clocks with 
solar jobs, and wind turbine building and all the rest. If you 
agree with Senator Barrasso, it is the biggest jobs killer ever 
thought up by anybody, that is your opinion.
    I don't care what your opinion is. I want you to follow the 
law and make sure that EPA is following the law. We don't need 
to make big speeches here on where we come down on the politics 
of it. That has nothing to do with you. But you need to look at 
what happened with the Supreme Court and whether or not our 
Administrator is following the law. And if you find that she is 
not following the law, you need to let us know. And if you find 
that she is, you need to let us know.
    But I hope you will not get caught up one bit in this 
controversy that we have between the parties here on this 
committee. Because that is not your role. It would be 
inappropriate to do so.
    We are going to now call on our nominees. Mr. Elkins, and 
each of you, if you have family here or friends, please feel 
free to introduce them. Because we are so grateful to them for 
lending you to us for a certain period of time.
    So Mr. Elkins, go ahead.
    [The referenced study follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
    
    
 STATEMENT OF ARTHUR A. ELKINS, JR., NOMINATED TO BE INSPECTOR 
         GENERAL, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Elkins. Thank you, Chairman Boxer. I really appreciate 
the opportunity to talk to you about my nomination this 
afternoon.
    I would like to introduce my wife, Gail, who has been a 
real big supporter of mine throughout this whole process. I am 
really just thrilled with having her here and having her behind 
me. I would also like to acknowledge a couple of my colleagues 
from the Defense Office of Hearings and Appeals who have also 
come down to support me as well. So I would like to acknowledge 
them as well.
    Mr. Fields.
    Senator Boxer. Stand up, please, sir.
    Mr. Elkins. And Peregrine Russell-Hunter.
    Senator Boxer. Welcome. Very good.
    Mr. Elkins. Madam Chairman and members of the committee, 
thank you for this opportunity to appear before you today as 
the President's nominee for Inspector General of the 
Environmental Protection Agency. I am deeply honored and 
grateful for the President's nomination. I am also mindful of 
the important role that the Environment and Public Works 
Committee plays in matters related to the EPA, including its 
Office of Inspector General.
    The mission of the EPA OIG as defined by the Inspector 
General Act of 1978, stated briefly, is one, to conduct and 
supervise audits and investigations relating to EPA programs 
and operations; two, provide leadership, coordination and 
recommend policies for activities designed to promote economy, 
efficiency and effectiveness in the administration of EPA 
programs; three, prevent and detect fraud and abuse in EPA 
programs and operations; and four, provide a means for keeping 
the head of the EPA and the Congress fully and currently 
informed about problems and deficiencies relating to the 
administration of EPA programs and operations and the necessity 
for and progress of corrective actions.
    The OIG is tasked with protecting the integrity of EPA 
programs as well as human health and the environment. As with 
other Federal agencies, the IG serves as the agency's chief 
audit and law enforcement executive with dual reporting 
responsibilities to the EPA Administrator and to the Congress. 
More specifically, the IG is tasked with providing the 
Administrator and EPA program managers with objective and 
independent findings and recommendations that are designed and 
intended to improve EPA program efficiency and effectiveness 
and to initiate investigations to identify and hold accountable 
those who defraud EPA's programs.
    Moreover, the OIG through its hot line and other integrity 
awareness efforts also supports other important public policy 
initiatives, such as those articulated in the Ethics and 
Government Act, the Whistleblower Protection Act and other 
similar laws, rules and policies. Now, I am familiar with these 
tasks having served as the counsel to the Inspector General for 
the National Science Foundation for approximately 5 years. In 
that role I worked closely with the NSF Inspector General, OIG 
senior managers, attorneys, auditors, investigators and staff, 
support staff in audit and investigations planning, general 
management and OIG policy development. Moreover, for the past 
16 years I have also served the public in the roles of public 
defender, prosecutor, department counsel, chief legal counsel 
and general counsel and associate general counsel for Federal 
and local agencies.
    In the general counsel roles, I managed to staff of 
professional and support personnel in providing agency 
management with legal counsel and guidance on numerous Federal, 
State and administrative law legal issues. As a criminal 
prosecutor, public defender and department counsel my 
experience includes prosecuting, defending and investigating 
criminal, civil and administrative misconduct cases.
    Now, my vision and expectations if confirmed as the EPA IG 
can be summarized under the following four management 
principles. One, exceed OIG customer expectations. I view the 
term customer in a broad sense. That is, OIG customers include 
Congress, EPA agency management and staff, other Federal 
agencies and State employees, the court, the general public and 
OIG staffers. In my view, integrity, accountability, 
credibility, reputation and effectiveness are all byproducts of 
the delivery of consistent excellent customer service. If 
confirmed, I intend to establish as an office-wide policy that 
exceeding customer expectations will be an OIG priority. This 
means that customer inquiries will be responded to in an 
expeditious and meaningful way. It also means that OIG work 
products will be consistently delivered in a timely manner, be 
relevant, accurate, objective, understandable, focused on the 
most significant issues facing the EPA, be of the highest 
quality and where applicable, include customer input.
    The next principle is to maintain and expand OIG's subject 
matter expertise. The most important OIG asset is its 
employees. In short, the OIG is only as good as the expertise 
and commitment to excellence of its staff. If confirmed I will 
support staff development efforts and encourage staff to 
explore opportunities to grow personally and professionally.
    No. 3, ensure OIG organizational and information integrity 
and safeguard OIG independence. Beyond the human resource, 
organization and information integrity are key factors in the 
success of any organization. Having an organizational structure 
that is flexible and responsive to the needs of its customers 
without sacrifice to timeliness or quality and with predictable 
and secure data access is crucial to the success and health of 
any organization. In short, having a flexible but predictable 
organization allows the organization to react more quickly to 
non-standard events, be more creative problem solvers, 
proactive and manage scarce resources more efficiently and 
effectively. If I am confirmed I will encourage the adoption or 
continuance of these management principles within the EPA OIG.
    Further, IG independence and non-partisanship are critical 
to the OIG's success. In my view, a condition precedent to the 
acceptance of OIG's work products as credible and reliable is 
the extent to which its reputation for independence and non-
partisanship are non-challenged. As such, if I am confirmed, I 
will be vigilant in safeguarding the most important in the 
OIG's toolbox: its independence.
    Finally, operate the OIG in an ethical, professional and 
civil manner. The inclusion of this management principle 
affirms that should I be confirmed as the next EPA OIG I will 
continue the EPA OIG tradition of ensuring that the office 
operates to the highest standards of ethics, professionalism 
and civility. The role of the Inspector General in any Federal 
agency is important and challenging. With the challenge comes 
the opportunity to make a positive difference in the lives of 
many. If confirmed I will make a positive difference through my 
efforts to protect the taxpayers' investment from fraud, waste 
and abuse, while assisting the agency to exceed its goals. I 
will be personally committed to make the EPA OIG as successful 
in its mission as possible.
    Thank you again for this opportunity to appear before you 
today. I look forward to answering any of your questions.
    [The prepared statement of Mr. Elkins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
    
    
    
    Senator Boxer. Thank you so much, Mr. Elkins.
    Mr. Gohl, Federal Cochair, Appalachian Regional Commission. 
We look forward to hearing from you. If you have any guests in 
the audience, please let us know.

 STATEMENT OF EARL GOHL, JR., NOMINATED TO BE FEDERAL COCHAIR, 
                APPALACHIAN REGIONAL COMMISSION

    Mr. Gohl. Thank you, Chairman Boxer and members of the 
committee, for giving me this opportunity to come here today to 
talk to you about my nomination as the Federal Cochair of the 
Appalachian Regional Commission. Today, my youngest daughter, 
Erin, is here with me.
    I am very honored that President Obama has nominated me for 
this position. The Appalachian Regional Commission is a 
Federal-State partnership that seeks to foster economic 
development, create jobs and improve the quality of life in the 
13-State region that runs along the Appalachian Mountains, from 
the southern tier of New York to northeastern Mississippi. The 
ARC was created to help close the socioeconomic gap between 
Appalachia and the rest of the Nation.
    My professional career has focused on working with State 
and local government to create opportunities for economic 
growth and development. I have 20 years of experience as an 
elected or appointed official in Pennsylvania, which is one of 
the key ARC States.
    As the Deputy Secretary of the Pennsylvania Department of 
Community Affairs my responsibilities included the operation of 
five bureaus and five regional offices that worked daily with 
local governments. In that capacity I was directly confronted 
by the economic challenges facing the Appalachian region. I saw 
first-hand the impact ARC's programs could have on my State's 
rural communities. My responsibilities included awarding and 
managing over $100 million annually in Federal and State funds 
that focused on the housing and community development needs of 
Pennsylvania communities. In State government my focus was on 
ways to expand the arsenals of tools available for small towns 
to help them build the capacity to respond to their challenges.
    My 7 years as a local elected official gave me first-hand 
experience in dealing with the challenges of local governments, 
whose needs far out-strip available resources, and taught me 
how economic policy made far from the halls of the city or from 
town hall can have a very dramatic and very positive impact on 
communities. It gave me great respect for local officials who 
work each day and often long into the night to strengthen their 
communities' futures.
    The experience of being in the Department of Congressional 
Liaison ingrained in me the importance of both adhering to 
Administration policies and principles and also having 
responsive, transparent and timely communications with Congress 
if the agency is going to succeed in fulfilling its mission. If 
I am confirmed, I will be fully responsive to the requests of 
this committee.
    Appalachia has made considerable progress since ARC was 
created, with reductions in the poverty and infant mortality 
rates and increases in per capita income. But many significant 
challenges remain, particularly within the context of the 
current economic downturn, in which three-fourths of 
Appalachia's 420 counties have unemployment rates higher than 
national rates. Your committee recognized the importance of 
ARC's work in 2008 when it provided a 5-year reauthorization of 
the Commission's programs.
    If I am confirmed I will be committed to carrying out the 
objectives of the 2008 Reauthorization. In 2010 the Commission 
will be developing a new strategic plan. This document will be 
the Commission's compass and will reflect the 2008 
authorization and the priorities of the Appalachian Governors. 
While I don't want to prejudge the policy, the policy choices 
that the Commission may make as part of the process, I think 
the Commission's recent work in three particular areas merits 
strong consideration as priorities for the ARC in the future. 
The first is in continuing to complete the Appalachian 
Development Highway system. The second is to strengthen the 
competitiveness of Appalachian communities through better 
access to and use of broadband technology. And third helping 
Appalachian States and local governments diversify their 
economies through new jobs and renewable energy and energy 
efficiency.
    Much of the success of the ARC stems from the fact that it 
is a bottom-up approach to economic development. ARC projects 
originate at the local level. The ARC system is designed to 
ensure that the agency grants reflect local and State 
priorities. The region's local development agencies and 
districts are critical to this process. If I am confirmed I 
will respect this local, State, Federal approach to community 
and economic development.
    I am honored by the confidence President Obama has placed 
in me to lead the Appalachian Regional Commission. The ARC was 
conceived and pursued by a group of Appalachian Governors, 
advocated by Presidents Johnson and Kennedy and enacted and 
reauthorized by Congress on a bipartisan basis. It has an 
ambitious agenda with some very modest resources.
    At the end of the day, if I am confirmed my objective will 
be that each Federal dollar expended will be an investment in 
the economic futures of Appalachian families, that will 
generate a return for American taxpayers. I look forward to the 
opportunity of working with this committee in a common mission, 
providing greater economic opportunities for the 23 million 
Americans who call Appalachia home.
    I would be glad to answer your questions.
    [The prepared statement of Mr. Gohl follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
    
    
    
    Senator Boxer. Thank you.
    OK, here is where we are. We have moved up the votes to 4 
o'clock, Senators. Therefore, because we don't want to lose the 
TVA folks, I am going to ask if you could withhold your 
questions and please just put them in the record. We will make 
sure that they get answered before we have a meeting to move 
any of these nominees as well as the TVA. Is there objection to 
that? Because I'm worried that the TVA----
    Senator Cardin. I just want to make sure we will have a 
chance for the answers to put in the record before we are asked 
to vote.
    Senator Boxer. Yes, that is what I said. We will not--until 
everybody has their questions answered in writing we won't move 
on any of these. I just don't want to run the risk of having 
our great TVA stalwarts now get trapped by a vote. Thank you. 
We will move forward.
    Mr. Blitz.

     STATEMENT OF SANDFORD BLITZ, NOMINATED TO BE FEDERAL 
       COCHAIRPERSON, NORTHERN BORDER REGIONAL COMMISSION

    Mr. Blitz. Thank you, Chairman Boxer and members of the 
Environment and Public Works Committee. President Obama's 
submission of my nomination and my appearance here today before 
this august body is the greatest honor that has ever been 
bestowed upon me. Not only me, but to my family.
    I am humbled by the confidence that has been shown in me 
and pledge to you that if confirmed, I will be sure to justify 
that confidence. And while I am speaking of family, the only 
family that was able to get here because of the weather is my 
wife, Mona, my partner for over 40 years.
    Senator Boxer. Welcome.
    Mr. Blitz. My story is similar to others that have 
previously appeared before the Senate. That is to say, I am a 
second generation American. My maternal and paternal 
grandparents were born in Europe. My mother, very early in the 
lives of her children, became a single parent. Our mother, Ida 
Blitz, was the quintessential mother, protecting and nurturing 
her three children to allow them to grow to be productive 
citizens in society and to have their own families.
    As a result of my mother's emphasis on the importance of an 
education I became the first member of my extended family to 
enter college and receive a degree. I am a native New Yorker 
who has lived and worked in New England since 1964. My 
employment career history includes working for the private 
sector for small and large corporations as well as being 
employed in the non-profit sector. In addition I created and 
operated my own consulting business for over 12 years.
    However, the majority of my career has been spent in public 
service, and I must say the most satisfying of my vocational 
career. I am not going to go over that because you already 
heard it from the two Senators, and it will be in my statement 
that is entered into the record.
    Senator Boxer. We will put it into the record.
    Mr. Blitz. Thank you. Thank you, Madam Chairman.
    Throughout my Government career and my consulting business 
I have been involved in economic development issues and 
intergovernmental relations. As an adjunct assistant professor 
with the Department of Public Administration at the University 
of Maine, I teach graduate classes in economic development, 
intergovernmental relations and regional governance. All three 
of these courses are directly related to the work of the 
regional commission.
    I have been focused on economic challenges faced by the 
Northern Border area for over 10 years and have witnessed how 
this region, which crosses four State boundaries, experiences 
common economic challenges. This is a region that is 
particularly well suited for the coordinated development 
approach pioneered by the Appalachian Regional Commission. I 
hope we can replicate many of the Commission's successes.
    In November 2003 I set up a conference in Bangor, Maine, to 
encourage this type of regional development with the theme, The 
Emerging International Northeast: The Imperative, A Regional 
Coherence. Based on my years of economic development experience 
in the region, I am very encouraged by the potential that the 
Regional Commission will bring to the Northern Border States. I 
applaud the Congress for establishing this Commission.
    Furthermore, I am honored to be nominated to be the first 
to hold the position of Federal Cochair of the Commission, if 
confirmed.
    I believe that bringing Maine, New Hampshire, New York and 
Vermont together with the assistance of the Federal Government 
will result in far sighted, well conceived approaches to bring 
opportunity to the northern border. Additionally, at this time 
of increased economic distress the NBRC will be another vehicle 
with resources to assist in the creation of much-needed jobs in 
a region under enormous economic strain.
    As I said earlier, I have worked for many years in the 
economic development field throughout New England. I am 
dedicated to finding effective economic strategies, improving 
public infrastructure as well as assisting private sector job 
creating initiatives. I believe that the Northern Border 
Regional Commission represents a unique and invaluable resource 
to improve the lives of all who live in this broad region. If 
confirmed I will spare no effort to ensure that the Commission 
fulfills this great promise.
    Chairman Boxer and members of the committee, I appreciate 
this opportunity to appear before you and to familiarize you 
with my background. I look forward to responding to any 
questions that committee members may have.
    [The prepared statement of Mr. Blitz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
    
    
    
    Senator Boxer. Thank you so much.
    Gentlemen, I am going to go down the row. I have certain 
questions I have to ask you for the record. I will just go down 
the row.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee and 
other appropriate committees of the Congress and provide 
information, subject to appropriate and necessary security 
protection, with respect to your responsibilities?
    Mr. Elkins.
    Mr. Elkins. Yes, ma'am.
    Mr. Blitz. Yes.
    Mr. Gohl. Yes.
    Senator Boxer. All right. Do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of communication are provided to this committee and its staff 
and other appropriate committees in a timely fashion?
    Mr. Elkins. Yes, I do.
    Mr. Gohl. Yes.
    Mr. Blitz. Yes.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Mr. Elkins. No.
    Mr. Gohl. No.
    Mr. Blitz. None.
    Senator Boxer. All right. We want to just thank you very, 
very much. We will get you some questions. But in the meantime, 
get home safely, and thank you very much.
    We will ask our TVA panel to come up at this time.
    [Pause.]
    Senator Boxer. I am going to ask if the panel could take 
its seat because we have to make sure that we are out of here 
around 10 after 4 so that we can make our votes.
    I am very pleased to convene this hearing on the 
nominations of Marilyn Brown, Barbara Haskew, Neil McBride and 
William Sansom to the board of the Tennessee Valley Authority.
    The Tennessee Valley Authority is a critical piece of our 
Nation's energy policy. In 1933 it was an ambitious, 
unprecedented and successful Government effort to improve a 
deeply impoverished area. Its mandate is to be a national 
leader in technological innovation, low cost power and 
environmental stewardship. I want to repeat that. You have a 
mandate in three areas: technological innovation, low cost 
power and environmental stewardship.
    In 2010 that mandate is even more important. Our Nation is 
on the brink of tremendous energy and environmental 
opportunities. If our Nation acts now to develop and 
manufacture clean energy technologies, and we do it right, I 
believe our communities, our families, our health and our 
economy will all benefit.
    The tragic coal ash disaster at TVA Kingston fossil plant 
over a year ago highlighted some of the hidden costs to public 
health and safety and the need to rethink how a utility should 
be managed in the 21st century. So you will be there at a time 
of great opportunity and challenge.
    I believe TVA's board must help to lead the way in 
developing and using clean energy technologies, must ensure 
that TVA does not repeat the mistakes of the past, and must do 
everything it can to make the people affected by the spill and 
its aftermath whole. We have met--I know Senator Alexander has 
and I have--some of the people that were dislocated as a result 
of that tragic episode.
    I believe that TVA should also increase its commitment to 
its core mission, or the missions. I look forward to hearing 
from you about how specifically you view your mission on those 
three areas, low cost power, technology innovation and 
environmental stewardship.
    [The prepared statement of Senator Boxer follows:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    I am very pleased to convene this hearing on the nomination 
of Marilyn A. Brown, Barbara S. Haskew, Neil G. McBride and 
William B. Sansom to the Board of the Tennessee Valley 
Authority (TVA).
    The Tennessee Valley Authority is a critical piece of our 
Nation's energy policy. In 1933, it was an ambitious, 
unprecedented and successful Government effort to improve a 
deeply impoverished area. Its mandate is to be a national 
leader in technological innovation, low cost power, and 
environmental stewardship.
    In 2010, that mandate is even more important. Our Nation is 
on the brink of tremendous energy and environmental 
opportunities that can create new jobs and economic growth in 
our country. If our Nation acts now to develop and manufacture 
clean energy technologies, our communities, our families, our 
health and our economy will all benefit.
    The tragic coal ash disaster at the TVA Kingston Fossil 
Plant over a year ago highlighted some of the hidden costs to 
public health and safety from fossil fuel based energy and the 
need to rethink how a utility should be managed in the 21st 
century.
    I believe that the TVA's Board must help to lead the way in 
developing and using clean energy technologies, must ensure 
that TVA does not repeat the mistakes of the past, and it must 
do everything that it can to make the people affected by the 
spill and its aftermath whole. The TVA must also increase its 
commitment to its core mission of environmental stewardship and 
to protecting the health and safety of all communities affected 
by its operations.
    I look forward to hearing from the nominees about 
specifically how they would help to guide TVA to achieve its 
mission of being a national leader in low cost power, 
technological innovation and environmental stewardship.

    Senator Boxer. In the remaining time, I am going to put 
into the record a statement by Senator Carper. He wanted me to 
tell you this, that he very much wanted to attend the hearing, 
as he is the Chairman of the Senate Subcommittee, of this 
committee's Subcommittee on Clean Air and Nuclear Safety, which 
oversees the TVA. Unfortunately, he is detained in a meeting 
that has long been scheduled, and he will probably not attend, 
although he is trying to. Senator Carper wanted me to tell you 
he shares my view that the TVA should be a leader in our clean 
energy economy, and not a lagger. These nominees before us 
today can help change the culture at the TVA. He looks forward 
to meeting all of the TVA nominees in person, and he will have 
questions for the record.
    With that I will call on Senator Alexander.
    Senator Alexander. Madam Chair, I thank you for your 
comments, and I welcome the witnesses. I said most of what I 
had to say a little earlier.
    We had a hearing this morning at which there was a lot of 
head nodding around this table from both Democrats and 
Republicans about the President's three nominees for the 
Nuclear Regulatory Commission. They each seem exceptionally 
well qualified. And the Tennessee Valley Authority at the 
moment is the Nation's leader in construction of new nuclear 
power plants.
    The reason I was encouraged by the nominees this morning 
was because of a series of actions that President Obama has 
taken in the last several weeks, which are extremely important. 
One is the President said in his State of the Union address 
that he looks forward to a new generation of safe, clean 
nuclear reactors. That is important, because the Government is 
not going to build any nuclear reactors. The utilities are 
going to build them, and the ratepayers are going to help pay 
for them. We might help them get started a little bit. But the 
Presidential leadership is key.
    The President also appointed a number of outstanding 
members to a new commission that would deal with what to do 
with used nuclear fuel. The Nuclear Regulatory Commission today 
says it can be stored safely onsite for maybe 60 or maybe 80 
years. But we need a better way to recycle the fuel than we now 
have today. So we ought to take the time to do that well and 
not be content with, for example, what France does.
    The President also endorsed $54 billion of support for loan 
guarantees for new nuclear power plants. I favor that, although 
to be consistent I would prefer that the loan guarantees be for 
any low carbon energy because I would like to see us move away 
from a production tax credit for wind and an investment tax 
credit for solar and a renewable energy standard that just has 
a few sorts of clean energy. I would like to see us focus on 
all clean energy and recognize that in different parts of the 
country one thing may be appropriate here, another thing may 
cost less here.
    The President also has appointed an Energy Secretary who 
fully understands nuclear energy and has helped our Government 
take good, sound steps in the right direction. So we have a 
long way to go. But TVA, as the Chair said, is a unique agency. 
It is a Federal agency. It has a responsibility to be a leader 
in things that help our country, and one of those is clean 
energy. And from my point of view, and as we get to questions, 
if I don't have time I will put them in writing, because I have 
discussed them with each of you, the by far most appropriate 
clean energy for our region is nuclear power. We know how to do 
it. It would be hard to make a mistake building it because coal 
plants are going to come under increasing pressure, and we are 
going to need electricity. Even if we reduce--we talk a lot 
about conservation and efficiency, which all of us support. And 
I hope you can make great strides on that, about electric cars, 
which all of us support. Tennessee ought to be the center of 
that.
    So I hope your creativity is directed toward making 
Tennessee Valley a leader in the use of electric cars, in 
conservation and efficiency. But to maintain that leadership in 
helping this Nation produce nuclear energy again. That will 
help us have low cost power in the region, and it will help us 
have clean air and carbon free air.
    I thank the Chair, and I will save any other remarks for 
questions.
    Senator Boxer. Thank you.
    I am going to start with Ms. Brown, and we will go down. If 
you can each keep to 5 minutes, then we will get out of here 
just at the time the vote starts. And then you can get safely 
to your aircraft, I hope.
    Go ahead.

STATEMENT OF MARILYN A. BROWN, NOMINATED TO BE A MEMBER, BOARD 
            OF DIRECTORS, TENNESSEE VALLEY AUTHORITY

    Ms. Brown. Thank you very much, Madam Chair and Senator 
Alexander. It is an honor to appear before you as a nominee to 
the Tennessee Valley Board of Directors. I truly appreciate 
being nominated by President Obama, and I am grateful for the 
committee's consideration of my candidacy.
    I would also like to acknowledge my daughter, Katie 
Southworth, who is here. Katie, would you raise your hand? She 
is a new graduate of the University of Tennessee College of 
Law.
    I approach my nomination with tremendous esteem for the 
Tennessee Valley Authority and what the institution represents. 
The Tennessee Valley is a land of opportunities. It is rich 
with resources, abundant in beauty and blessed with a unique 
history and tradition. TVA is an essential part of that history 
and continues to occupy a critical role in the lives of Valley 
residents and the regional economy.
    You have before you in my written testimony the details of 
my career. I am not going to reiterate those; rather I am going 
to fast forward to 2006 which is when I left Oak Ridge National 
Laboratory, after 22 years working in and eventually leading 
their energy efficiency and renewable energy program. Since 
moving from Oak Ridge to Atlanta, where I teach at the George 
Institute of Technology, my concern for the energy challenges 
facing the southeast and the Nation have grown. Consumption of 
electricity is increasing rapidly, particularly during periods 
of peak demand. While efforts to manage the growing appetite 
for energy are often inadequate I am confident that a variety 
of practical solutions are available to manage TVA's growing 
demand while ensuring reasonable prices, reliable service, 
responsible environmental practices and economic growth.
    The challenge of energy security also looms large. And in 
that case electricity markets and policies can also provide 
solutions. TVA and other electric utilities can make the region 
and the country more secure by using its off-peak electricity 
to electrify cars, and by using plug-in vehicles to back up the 
grid. So loss of opportunities, just as TVA has converted 
challenges into opportunities in its past, TVA can contribute 
to bringing opportunities to the Tennessee Valley today.
    If confirmed I commit to working closely with you and my 
fellow board members to promote TVA's energy, environmental and 
economic mission. I look forward to answering any questions you 
have perhaps later in writing. Thank you.
    [The prepared statement of Ms. Brown follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
    
 
    
    Senator Boxer. Thank you so much, Ms. Brown.
    Ms. Haskew.

STATEMENT OF BARBARA S. HASKEW, NOMINATED TO BE A MEMBER, BOARD 
            OF DIRECTORS, TENNESSEE VALLEY AUTHORITY

    Ms. Haskew. Good afternoon, Madam Chairman and members of 
this committee. I believe that is Senator Alexander at this 
time, and I want to thank you for your kind words.
    I am honored, certainly, to appear before you today to be 
considered for appointment to the Board of Directors of the 
Tennessee Valley Authority. I am also deeply honored by the 
President's nomination of me for a position on this board. I do 
want to acknowledge our two daughters who are here today 
through a great deal of ingenuity, my daughter Bonnie McMullen 
from Kansas City and my daughter Holly Tambling, who is from 
California.
    Senator Boxer. Welcome.
    Ms. Haskew. I want to also say that my roots run very deep 
in the Tennessee Valley. Today we make our home on Raccoon 
Mountain, where TVA's pumped storage facility is located. I can 
stand in my back yard and look west and see the Sequoyah 
nuclear plant in the distance.
    My education and professional experience of more than four 
decades have developed management and leadership skills that 
qualify me, I think, for service on the TVA board. Many of 
these were developed in leadership positions at the Tennessee 
Valley Authority and at Middle Tennessee State University. 
During the 1980s I served TVA as the manager of rates, 
developing rate structures designed to both provide cost-based 
revenues and shape TVA's power load. I was part of the team 
that negotiated rates with TVA power distributors and discussed 
rate issues with large industrial customers. These involvements 
deepened my understanding of the needs and concerns of the 
Valley customers and consumers. It was a challenging decade for 
TVA and Valley consumers as rising fuel and interest costs 
produced significant rate increases.
    But it was also a period when TVA experimented with 
alternative technologies and applications. These were designed 
to use power more efficiently and to price it in ways that 
encouraged conservation. I built additional leadership 
expertise over 14 years in the positions, dean of the college 
of business and as provost and vice president of Middle 
Tennessee State University, managing hundreds of faculty and 
staff and large budgets. I also served on professional and 
public service boards at the national and regional levels, 
which added to my leadership and governance understanding.
    In recent years I have returned to teaching, focusing my 
research on the interactions in the southeast between energy, 
economic growth, education and the region's population and 
labor pools. And to echo your remarks, Madam Chairman, I too 
have noted and Senator Alexander has emphasized to me that the 
TVA Act requires board members to affirm support for the 
objectives and missions of the corporation. These include being 
a national leader in technological innovation, low cost power 
and environmental stewardship. As an economist and as a citizen 
I am focused on these opportunities and challenges that TVA 
faces as it addresses important questions about power 
production and use, the increased protection of the 
environment, and the exciting potential of new technologies.
    I believe that I can contribute to these discussions, and I 
too look forward to answering your questions.
    [The prepared statement of Ms. Haskew follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
    
    
    
    Senator Boxer. Thank you.
    Mr. McBride.

 STATEMENT OF NEIL G. MCBRIDE, NOMINATED TO BE A MEMBER, BOARD 
            OF DIRECTORS, TENNESSEE VALLEY AUTHORITY

    Mr. McBride. Thank you, Madam Chair, Senator Alexander. I 
am honored and humbled by the President's nomination and your 
consideration of my appointment to the Tennessee Valley 
Authority Board of Directors.
    My son Allen is here in the audience. I am very happy to 
have him with us today.
    You have my written statement. I am going to try to point 
out very briefly how I feel about TVA as an institution and the 
principles that I would be guided by if I am confirmed as a 
board member. The recent Ken Burns documentary on our national 
parks called them America's Best Idea. I have always felt that 
TVA was also one of America's best ideas. The creation of an 
agency that would turn America's industrial, engineering and 
organizational talent to the benefit of one of the poorest 
regions in our country is still an important and inspiring 
commitment.
    If I am confirmed as a board member, I would try to be 
guided by four principles. First, the Board's primary 
obligation is to assure a reliable supply of fairly priced 
electric power for the people, businesses and industries of the 
Tennessee Valley.
    Second, the Board should continue to support the efforts by 
CEO Tom Kilgore and his staff to ensure that each one of the 
TVA divisions, managers and employees understands the 
importance of all four of TVA's missions: electric power 
production, environmental stewardship, water management and 
economic development. Madam Chair, I add that fourth out of the 
sense of the history of TVA as a water manager in our region. 
But whether you have three or four missions, managers and 
employees should not just be driven by the one mission they 
happen to work with.
    Third, the Board should promote accountability and 
transparency in its own work and out of the agency.
    The final principle is one I was reminded of when I 
recently visited TVA's Bull Run Steam Plant, just a few miles 
from my home. The plant's visitor's overlook has an historic 
marker just like the ones you would find in a national park. 
Across the bottom of the marker in big steel letters are the 
words ``Built for the people of the United States of America.'' 
I would challenge the Board and the staff to ensure that both 
the people of the Valley and the people of American benefit 
from the programs and the idea of this unique American 
institution.
    I look forward to answering any questions you might have 
and especially to hearing your views on the complex issues that 
TVA is facing.
    [The prepared statement of Mr. McBride follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
    
            
    Senator Boxer. Thank you.
    Mr. Sansom.

STATEMENT OF WILLIAM B. SANSOM, NOMINATED TO BE A MEMBER, BOARD 
            OF DIRECTORS, TENNESSEE VALLEY AUTHORITY

    Mr. Sansom. Madam Chairman and Senator Alexander, I 
appreciate the opportunity to appear before you today. I don't 
have any family back here to introduce.
    I appreciate the nomination, again, for a potential second 
term from President Obama. And I appreciate the support of 
Lamar Alexander and Bob Corker and the Tennessee delegation.
    I was one of the first ones on this new board to be part of 
the transition from a three-person full-time board to a nine-
person part-time board. It took us a while to figure out we 
were part-time. But anyway one of the first things we did was 
develop a strategy for TVA. I think what we looked for was to 
strengthen our financial stability and our performance; 
customer satisfaction was important in what we did then and 
still do. We wanted to be a top quartile performer in what we 
did.
    Then after that we adopted a new environmental policy, 
which in addition to having reliable low cost power we would 
have clean power. And Senator, in response to your comment, 
about 40 percent of your power is clean today. Our goal in this 
environmental policy was to be 50 percent by 2020 of clean 
power. With that we have been aggressive in getting our Watts 
Bar nuclear plant approved and under construction. We hope it 
is online by 2012.
    We are currently underway with our energy efficiency plans, 
trying to be more efficient in what we do with our customers, 
working with our distributors to do that, and our demand side 
also. With that we are working on our opportunity to provide 
power for electric cars. Since you have been flexible to allow 
us to come here before you today, I am going to cut my 
testimony and look forward to the opportunity, if you will, to 
serve on the Board.
    [The prepared statement of Mr. Sansom follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
    
    
    
    
    Senator Boxer. Thank you very much, Mr. Sansom.
    So we have just a couple of minutes here. I have been 
troubled by something, and I guess I would start with Mr. 
Sansom, and then I would like to hear a little bit of an 
opinion down the row if you can. In 2006 North Carolina sued 
the TVA in an effort to get pollution controls put on some coal 
plants. Testimony that the State put on North Carolina in the 
trial, they estimated that TVA pollution caused 1,400 premature 
deaths a year and $8.4 billion in health care costs.
    Now, North Carolina won that suit, and it has been appealed 
by the TVA. I wrote a letter asking you not to appeal it 
because as I look at the charter, if you are supposed to be 
protecting the health of the people why would you fight a court 
order that said you have to put best available pollution 
controls on your coal-fired plants?
    So I guess what I want to know is whether you, Mr. Sansom, 
agreed with that decision to fight back against this judge and 
why, if so; and from the others, if you don't want to get into 
the details, just a general response. If a court finds that 
there were deaths, I mean, I don't know why we would want to 
fight that. Why wouldn't we want to work with a neighboring 
State to fix it?
    Yes, Mr. Sansom.
    Mr. Sansom. Madam Chairman, we are working with EPA to work 
on a global plan, if you will, at TVA for cleaning up our 
plants. The North Carolina suit put a pretty harsh burden on us 
on time. We had schedules to do these clean ups, and we have 
been installing our clean systems in the coal plants, SCRs. 
There was no way with that lawsuit to meet the clean up time 
that was put on us to do that.
    Senator Boxer. OK. So you personally believe they have a 
point, you are going to clean this up, you are going to put the 
pollution controls on, but you couldn't meet the timeframe laid 
out by the trial judge? Is that why?
    Mr. Sansom. That is right.
    Senator Boxer. That is why you voted to appeal. If I could 
get a general comment about the responsibility of TVA to clean 
up and to not pollute in the first place, Mr. McBride, and we 
will go down.
    Mr. McBride. Madam Chair, I would add to Bill's comment a 
broader notion that if the Board is successful in getting the 
staff of TVA to recognize each of its missions and see 
investment in environmental control as an investment in an 
important aspect of its overall mission that the agency 
wouldn't be driven so much by the technicality of an EPA 
regulation or an order of the court. I would like to see us 
reach that broader level of commitment.
    Senator Boxer. I appreciate that.
    Ms. Haskew.
    Ms. Haskew. Well, certainly since I am not yet on the Board 
I can't speak as a member of the Board. Nor have I read the 
legal decision. But I am sensitive to the comments that Mr. 
Sansom said about time in response. I would like to also 
emphasize that at least by looking at the public press and what 
it has said about this, not only the North Carolina suit but 
about Kingston, and what TVA has responded, I have certainly 
seen a lot of comments, and in comments or discussions with Mr. 
Kilgore, who is the chief executive officer, increased 
commitment to TVA to more clean power. Mr. Sansom referenced 
this, and the desire to have 50 percent in clean power by 2020. 
Also, I think TVA has moved to close down one of its coal-fired 
plants that it felt the cost of it, to clean it up, was going 
to be too great.
    So I think TVA is moving in that direction. I think its 
emphasis upon nuclear power is clearly a part of that.
    Senator Boxer. Well, you are going to be a member of the 
Board, so you are going to help move it in one direction or the 
other. I just think you need to be a good neighbor. This is not 
a good situation, North Carolina suing TVA, it is a bad 
situation.
    Ms. Haskew. Yes.
    Senator Boxer. Ms. Brown.
    Ms. Brown. If confirmed I surely would strongly commit to 
TVA's living up to its obligation of environmental stewardship. 
I am probably the least familiar with the lawsuit that you have 
mentioned. But I have read the TVA environmental policy newly 
published about a year ago. It does commit to meeting a large 
portion of new electricity demand with efficiency investments. 
Helping to meet the remaining growth of demand with clean power 
and upgrading the environmental performance of its existing 
generation. So I am convinced that VA appreciates--has a 
strategy to going forward. I will certainly help in that 
regard.
    Senator Boxer. Yes, you may need to push a little bit.
    Senator, the floor is yours. Then Senator Whitehouse, and 
you will be on your way.
    Senator Alexander. Thanks, Madam Chair.
    I appreciate Senator Boxer's question. Maybe the Congress 
will be able to give TVA a little help on this, Madam Chair. 
Senator Carper and I have been introducing legislation for the 
last 6 years to require national standards for sulfur, nitrogen 
and mercury, now mercury in emissions. The landscape has 
changed because we now have better technology for mercury. We 
have 11 co-sponsors of that legislation, 5--about an equal 
number of Democrats and Republicans and one Independent. That 
will help the Tennessee Valley greatly because while TVA is the 
source of some of our dirty air a lot of it blows in from other 
States. We simply can't clean up the Valley by ourselves.
    So I am very hopeful that, Madam Chair, that we will be 
able to consider that legislation this year. We have some 
differences over carbon and how to approach it in the Senate. 
But I see a consensus that we know what to do on sulfur, 
nitrogen, mercury, and there is no excuse for not going ahead 
with it in terms of our health, in terms of the smog of the 
Smokies, in terms of being able to recruit jobs. I mean, a 
Volkswagen supplier can't come to Chattanooga if Chattanooga 
can't get an air quality permit because dirty air blows in from 
Ohio or from TVA plants, either one.
    So I understand that can't all be done overnight. But it 
needs to be done. The bottom line to me is there is really not 
any excuse for TVA operating coal-fired power plants that don't 
have the current available technology for sulfur, nitrogen and 
mercury emissions, period, which leads me to my question.
    Mr. Sansom, I will start with you.
    If that means that we might have fewer coal plants in the 
future, and if the region is growing, and even if you do a good 
job on conservation and efficiency, which I hope you will do, 
where is TVA going to get its power? If the answer is nuclear, 
are you prepared--I know TVA restarted the application for 
Bellefonte I reactor and has the option of going to Bellefonte 
II, III and IV. Are you prepared to complete the reactor at 
Bellefonte I?
    Mr. Sansom. Senator, I will first answer you on the clean 
part. We think this is part of our solution. We have some old, 
dirty coal plants. If we can build these nuclear plants, and 
even if we were to miss the call on demand, which I might say 
even on January the 7th--I think the 7th or the 9th--we had 
almost our peak demand again even though the economy is down, 
consumption of energy is down. What we are doing, we have gone 
back and gotten our deferred status back for Bellefonte I. And 
the next in that process would be to get a construction permit 
from NRC to finish that plant that at one point was about 85 
percent complete. It is now about 65 because we took things out 
of it over the years.
    But that would allow us to bring on that plant about 2017. 
Then we are also looking at Bellefonte II, which would be 
behind that. And then we were involved in New Start, still 
there. We have put this ahead of New Start.
    So to answer your question, yes, we are trying to pursue 
nuclear. If Watts Bar comes online in 2012, and then we hope 
Bellefonte I in 2017 and then maybe four or 5 years later, II. 
So that is our aim, to try to get clean air, if you will, and 
have clean power.
    Senator Alexander. Mr. McBride.
    Mr. McBride. I believe that TVA has more opportunity for 
demand reduction than it is assuming. And if it challenged in 
an appropriate way might be able to reduce demand, as I say, 
more than they are projecting. Having said that I don't think 
they could reduce demand enough to eliminate the need for new 
production, which in the short run almost certainly has to come 
from new nuclear power generation.
    Senator Alexander. Ms. Haskew.
    Ms. Haskew. I agree in large part with Mr. McBride here. I 
think that we ought to pursue or TVA ought to pursue and its 
distributors ought to pursue all those activities that will 
lead to demand reduction and more efficient use of energy. But 
then as we--to support economic growth I think we have to have 
the low cost power, and that additional power may have to be 
through nuclear. I don't see in all the information that I have 
read about clean coal technology any that can really show that 
it is, at this point, clean.
    Ms. Brown. I look forward to working with the CEO of TVA on 
the development of a new strategic plan that would lay out a 
path forward for meeting the mission of the corporation. I do 
hope that one of the tasks will be to try to explain as much of 
the combined heat and power that exists in the Valley. I know 
that there is a lot that is going unexploited. I hear about 5 
megawatts of vented heat from metals production facilities that 
can't be captured for various reasons.
    I am quite interested in exploring every little bit of 
waste heat and waste power that we can capture to offset the 
need for investing in upgrades and new expansion, although I am 
pro-nuclear. I do think it needs to be part of the solution. I 
look forward to bring Watts Bar online quickly and to exploring 
how many additional nuclear reactors are needed.
    Senator Alexander. Madam Chair, I have other questions 
which I will submit in writing. I know Senator Whitehouse 
hasn't had a chance to say anything.
    Senator Boxer. Yes, Senator Whitehouse, and then we are 
going to vote. I have just the pro forma questions I have to 
ask each of you.
    Yes, Senator.
    Senator Whitehouse. Thank you, and to each of you, welcome 
and congratulations on your nominations. Well done getting here 
through the adverse conditions that Washington, DC, presents to 
travelers today.
    Let me ask just very quickly each of you whether Earth's 
atmosphere and climate are being significantly and adversely 
affected by man-made carbon pollution and other greenhouse 
gases.
    Ms. Brown.
    Ms. Brown. I do think that the bulk of the evidence 
suggests that mankind is interfering with the global climate. 
As a result, the climate is warming and becoming more extreme. 
We do need to attend to that. The certainty is not 100 percent, 
but we need to take a risk averse and insurance type of 
approach and consider what we can do that is good for the 
economy and good for the environment in the meantime while we 
figure out exactly the extent and the cause of the problem.
    Senator Whitehouse. Ms. Haskew.
    Ms. Haskew. In the economics texts from which I teach my 
students it refers to climate change and global warming are 
referred to as the mother of all externalities. Which means 
that by the time we could see the full negative impact of these 
forces it might be too late to address them. Because that might 
be 40 or 50 years.
    So yes, I think the science does indicate that greenhouse 
gases are a problem for our environment.
    Senator Whitehouse. Mr. McBride.
    Mr. McBride. As I said earlier about the need to recognize 
all of TVA's missions I would start by saying it is important 
to recognize the health, environmental, human impact of all of 
TVA's operations and not be guided simply by the technical 
limits of Federal or State regulation. Having said that, I 
believe that there is enough evidence to suggest that there are 
global impacts beyond the local public health and environmental 
impacts that the prudent thing for all producers of power and 
carbon emissions and other greenhouse gases to do is to assume 
that they are having an impact.
    Senator Whitehouse. Mr. Sansom.
    Mr. Sansom. I agree that TVA has an impact, and we need to 
continue to work on cleaning up what we do.
    Senator Whitehouse. You don't doubt that. We hear some 
remarkable things said in this room about climate change from 
time to time. I just wanted to make sure that there was no 
doubt in anybody's mind here that climate change is happening, 
and it is happening as a result of human emissions, and that 
the consequences are adverse for our planet and species. I am 
seeing four nodding heads. So I will leave it at that.
    In the short minute I have remaining, let me ask this. 
There has been substantial talk about the impossibility of a 
Government-run entity to run efficiently and to in fact manage 
anything. And here stands TVA, lasted quite a long time. 
Comparing yourselves to privately owned electric utilities how 
would you react to the theory that if it is Government-run it 
must be inefficient and wasteful?
    Mr. Sansom.
    Mr. Sansom. I am a business person. I would have tended to 
say that private industry might do a better job. TVA is--what I 
will say now after being there for about 4 years--is a very 
good model. I think we have the opportunity to run it right. I 
think this Board structure has helped it, with our strategies 
and what we are doing, with what we have done as a Board to get 
management and have these goals of being as good as any 
corporate performance. You are our shareholder. I think we can 
operate and be responsive to our shareholders and have low cost 
power and do it in the model that TVA is. I think it is an 
excellent model.
    Senator Whitehouse. I am down to 12 seconds. Does anybody 
disagree that by virtue of being--does anybody disagree with 
the proposition that a Government-run organization can be as 
efficient as a privately run organization? Nobody disagrees 
with it. Good.
    Mr. McBride. I would restate it, Senator, and say that it 
can provide a different kind and maybe even more important 
value to the people and the mission that it is intended to 
serve.
    Senator Whitehouse. Thank you. Well said.
    Senator Boxer. Thank you, Senator.
    Well, I am going to go down the row, starting with Ms. 
Brown, and ask you these pro forma questions, but very 
important ones.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee and 
other appropriate committees of the Congress and provide 
information, subject to appropriate and necessary security 
protection, with respect to your responsibilities?
    Ms. Brown. Yes, I do.
    Ms. Haskew. Yes, I do.
    Mr. McBride. Yes.
    Mr. Sansom. Yes, I do.
    Senator Boxer. All right. Two, do you agree to ensure that 
testimony, briefings, documents, electronic and other forms of 
communication are provided to this committee and its staff and 
other appropriate committees in a timely manner?
    Ms. Brown. I do.
    Ms. Haskew. I do.
    Mr. McBride. Yes.
    Mr. Sansom. I do.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Ms. Brown. I do not.
    Ms. Haskew. No.
    Mr. McBride. No.
    Mr. Sansom. No.
    Senator Boxer. Excellent. Well, we want to really thank you 
from the bottom of our hearts for all of this. I want to thank 
Senator Alexander, because he really single handedly kind of 
hauled you back in here when we thought you were already gone. 
And it turned out you weren't. So this is good.
    And now we wish you well. Have a good flight back.
    Senator Alexander. Madam Chair, may I thank you?
    Senator Boxer. Yes, you may.
    Senator Alexander. On behalf of all of us Senators, but I 
think the witnesses and the families and TVA especially, your 
willingness to be really flexible today has been a big help. 
And I thank you for that.
    Senator Boxer. Happy to do it. Listen, it is out of respect 
for all these fine people and their families. But in addition, 
the job is so crucial. We just in a couple of questions laid 
out how important the job is. It is amazingly important. You 
could really just lead the country in this whole arena. So we 
are excited to have you on board and look forward to moving 
your nominations expeditiously.
    Thank you very much, and we stand adjourned.
    [Whereupon, at 4:08 p.m., the committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for making last-minute 
adjustments to today's hearing. I think it makes sense, given 
the weather situation, to hold a hearing for all of these 
nominees this afternoon. I want to extend a welcome to the 
nominees and their families here today. I will be supporting 
all of the nominees, and I look forward to working with them.
    Let me first address the nominee for Inspector General of 
the Environmental Protection Agency, Arthur Elkins, Jr. Mr. 
Elkins, you have your work cut out for you. Among other things, 
there needs to be an unbiased investigation into how EPA made 
its endangerment finding for greenhouse gases. This finding 
will lead to policies that destroy jobs and raise energy prices 
for consumers.
    I also want to note the numerous inquiries and document 
requests from the minority of this committee to EPA. Those 
inquiries and requests have either gone unanswered or were 
addressed in a grossly incomplete fashion. Take a look at this 
chart. It should give you a fairly good sense of the Agency's 
unresponsiveness. Mr. Elkins, I hope you will work with me to 
assure taxpayers that EPA is following the law and that it 
conducts business with openness and transparency.
    Today we also have a nominee for the Northern Border 
Regional Commission (NBRC), Sandford Blitz. I look forward to 
hearing how Mr. Blitz plans to manage this new program and how 
to make it work effectively for those it is designed to help. 
And we have Earl Gohl as the nominee for the Appalachian 
Regional Commission (ARC).
    For both Mr. Gohl and Mr. Blitz the rules and regulations 
this Administration has imposed and wants to impose have at 
least one thing in common: they disproportionately impact rural 
America. So I say to you today: stand up for rural America, and 
be sure that its voice gets heard.
    Now let me turn to our TVA nominees. A critically important 
issue is how TVA is responding to the Kingston coal ash spill 
that occurred in December 2008 in Roane County, Tennessee. 
TVA's CEO, Mr. Tom Kilgore, made a commitment to the community 
to clean up the site as quickly and safely as possible. I 
believe TVA is living up to its commitment. I would like to 
hear the nominees' thoughts on TVA's progress, what TVA can do 
better, and how your role on the Board will ensure that TVA 
continues to make good on its promise.
    As TVA continues clean up, EPA and the Obama administration 
are supposedly close to finalizing a proposed rule to regulate 
coal combustion waste. The proposal, from what we have 
gathered, attempts to regulate coal combustion waste as a 
hazardous waste under title C of the Resource Conservation and 
Recovery Act.
    Let's not forget that Kingston was an engineering failure. 
That is where our focus should be--we need to ensure that the 
coal ash impoundments are structurally sound. Taking the 
hazardous waste course that EPA is considering will not ensure 
the structural safety of the impoundments. Moreover, it will 
prevent the beneficial use of coal combustion waste. This will 
impair our ability to build and improve roads and 
infrastructure, which is so badly needed in today's economy.
    Madam Chairman, I look forward to hearing from the 
witnesses.

                                 <all>
</pre></body></html>
